No. 19-1061
IN THE

Supreme Court of the United States
DR. REDDY’S LABORATORIES, LTD., et al., Petitioner,
v.
ELI LILLY AND COMPANY, Respondent.

On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Federal Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5, and 37.5, that I have, this 27th day of March, 2020,
served three copies of the Brief For The Association for Accessible Medicines as
Amicus Curiae in support of Petitioners upon each party separately represented in
this proceeding by causing them to be deposited with the United States Postal
Service, with first-class postage prepaid, addressed to counsel of record at the
addresses listed below:
John Caviness O’Quinn
Kirkland & Ellis LLP
1300 Pennsylvania Avenue, N.W.
Washington, D.C. 20004
John.oquinn@kirkland.com
Counsel of Record for Petitioners
Adam Lawrence Perlman
Latham & Watkins LLP
555 Eleventh Street, N.W.
Suite 1000
Washington, DC 20004
Adam.perlman@lw.com
Counsel of Record for Respondent

I further certify that, pursuant to Supreme Court Rule 29.3, I have caused
electronic copies of the brief to be served on the parties at the email addresses listed
above.
I further certify that all persons required to be served have been served.

EDWINA B. CLARKE
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210

March 27, 2020

____________________________
BRIAN T. BURGESS
Counsel of Record
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N St., N.W.
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000

Counsel for Amicus Curiae

